                      OFFICE O F THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE




                       AUDIT O F CORPORATION FOR
                    NATIONAL AND COMMUNITY SERVICE
                   CONTRACT NO. CNCS 94-003 AND NO. 95-002
                       HI-TECH INTERNATIONAL, INC.

                           OIG Audit Report Number 00-23
                                 February 3,2000




                                          Prepared by:

                                    Cotton & Company LLP
                               333 North Fairfax Street, Suite 401
                                  Alexandria, Virginia 223 14

                                 Under Department of State OIG
                           Contract # S-OPRAQ-99-D-D-0021-CNS-06




This report was issued to Corporation management on June 15,2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than December 12,2000,
and complete its corrective actions by June 15, 2001. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                                                                                              CORPORATION

                              Office of the Inspector General                                 FOR NATIONAL
                      Corporation for National and Community Service

                                          Audit of
                      Corporation for National and Community Service
                    Contract No. CNCS 94-003 and No. CNCS 95-002 with
                                 Hi-Tech International, Inc.


Cotton & Company, LLP, under contract to the Office of the Inspector General, audited the amounts
claimed by Hi-Tech International, Inc., under Contract No. CNCS 94-003 and No. CNCS 95-002.
The audit covered the costs claimed during the period from September 7, 1994 through January 3 1,
1999. The Corporation awarded Contract No. CNCS 94-003 for the period September 7, 1994, to
August 3 1,1998. This was a time-and-materials contract under which Hi-Tech provided conference
and meeting support to the Corporation. The Corporation awarded Contract No. CNCS 95-002 for
the period of February 2, 1995, to January 3 1, 1999. This was a time-and-materials contract under
which Hi-Tech provided data base application development and computer-related support to the
Corporation.

The auditors questioned $36,852 (approximately one percent) of costs claimed under the two
contracts. The auditors also found two material weaknesses in Hi-Tech's internal control structure.
The first related to the retention of documentation supporting all direct labor, travel and other direct
costs billed to the Corporation. The second material weakness related to the adequacy of Hi-Tech's
timekeeping procedures - Hi-Tech employees sometimes used correction fluid to alter timesheets,
supervisors did not sign all timesheets, and employees and supervisors did not initial all changes to
timesheets.

Additional information on questioned costs, as well as compliance and internal control findings, are
discussed in detail in this report.

A draft of this report was sent to the Corporation for National and Community Service and to Hi-
Tech International, Inc., for comment. In its response to a draft of this audit report, the Corporation
stated that it had reviewed the draft but did not have specific comments at this time. The
Corporation's response is attached as an appendix to this report. Hi-Tech International, Inc., did not
submit a timely response to the report.




                                                                                          Inspector General
                                                                                          1201 New York Avenue, NW
                                                                                          Washington, DC 20fi25
                    OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        AUDIT REPORT NO. 00-23

                                AUDIT OF
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
             CONTRACT NO. CNCS 94-003 AND NO. CNCS 95-002 WITH
                     HI-TECH INTERNATIONAL, INC.


                                            CONTENTS

                                                                 Page

Transmittal Letter

Results in Brief

Independent Auditors' Opinion

Schedule of Contract Costs

Independent Auditors' Report on Compliance

Independent Auditors' Report on Internal Control Structure

Appendix-The       Corporation's Response
             COTTO-NB CCIMPANY LLP



                                        February 3,2000


Inspector General
Corporation for National and Community Service


       We audited costs claimed by Hi-Tech International, Inc., to the Corporation for National
and Community Service under Contract No. CNCS 94-003 and No. CNCS 95-002 for the period
September 7, 1994, through January 3 1, 1999. The Corporation awarded Contract No. CNCS
94-003 for the period September 7, 1994, to August 31, 1998. This is a time-and-materials
contract under which Hi-Tech International, Inc., provided conference and meeting support to the
Corporation. The Corporation awarded Contract No. CNCS 95-002 for the period February 2,
1995, to January 3 1, 1999. This is a time-and-materials contract under which Hi-Tech
International, Inc., provided data base application development and computer-related support to
the Corporation.

         The audit objectives were to determine if: (1) costs claimed were allowable and were
incurred for actual contract effort, adequately supported, and charged in accordance with Hi-Tech
International, Inc.'s cost accounting system, contract terms, applicable laws and regulations
including the Federal Acquisition Regulation, and applicable cost accounting standards; (2) Hi-
Tech International, Inc., complied with contract terms and conditions; and (3) Hi-Tech
International, Inc.'s accounting system and system of internal accounting control were adequate
for purposes of these contracts.

        Except as discussed in the following paragraph, we performed the audit in accordance
with generally accepted auditing standards and Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the amounts claimed against the contracts, as
presented in the Schedule of Contract Costs, are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedule. An
audit also includes assessing the accounting principles used and significant estimates made by the
auditee, as well as evaluating the overall financial schedule presentation. We believe our audit
provides a reasonable basis for our opinion.
       Hi-Tech International, Inc., was unable to provide original employee timesheets to
support costs billed under the contracts. According to Hi-Tech International, Inc.'s senior
accountant, Hi-Tech International, Inc., employees at the Corporation's offices retained original
timesheets and sent facsimiles to Hi-Tech International, Inc.'s offices.

Response to Draft Report

       The Corporation's response to the draft report is included as an Appendix. In its
response, the Corporation stated that it reviewed the draft report and did not have specific
comments, but will address the findings and recommendations in the final management decision.
Hi-Tech International, Inc. did not respond within the comment period.


                                     RESULTS IN BRIEF

Costs Claimed

        We questioned $36,852 of costs billed under the two contracts. Our opinion on the
Schedule of Contract Costs is qualified as the result of the questioned costs and the effects, if
any, of matters that may have come to our attention had Hi-Tech International, Inc. provided
original employee timesheets.

       We questioned $36,681 of the $1,752,792 billed under Contract No. CNCS 94-003. As
described in the Schedule of Contract Costs, Hi-Tech International, Inc., billed:

               $167 of direct labor for 3.5 hours not supported by employee timesheets.

               $28,675 of travel and other direct costs for which there was no supporting
               documentation such as receipts, invoices, cancelled checks, or general ledger
               reports. We also questioned $5,790 of general and administrative (G&A) costs
               associated with unsupported travel and other direct costs.

               $2,049 of unallowable fee related to travel and other direct costs billed.

         We questioned $171 of the $1,627,555 billed under Contract No. CNCS 95-002. As
described in the Schedule of Contract Costs, Hi-Tech International, Inc., billed $171 of labor
costs at labor rates that did not agree with rates in the contract or contract modifications.

       The Schedule of Contract Costs provides additional information on these questioned costs
based on the results of our audit.

Compliance

      The results of our tests of compliance disclosed a material instance of noncompliance for
which we are recommending corrective action. Hi-Tech International, Inc., claimed direct labor,
other direct costs, general and administrative costs, and fee that were unallowable and
unallocable in accordance with contract terms and conditions and the Federal Acquisition
Regulation.

Internal Control

        We noted two matters involving Hi-Tech International, Inc.'s internal control structure
and its operations that we consider material weaknesses under standards established by the
American Institute of Certified Public Accountants. First, Hi-Tech International, Inc., did not
retain documentation supporting direct labor, travel, and other direct costs billed to the
Corporation. Hi-Tech International, Inc., did not retain original employee timesheets and did not
retain support, such as invoices, receipts, cancelled checks, or its general ledger for travel and
other direct costs billed. Second, Hi-Tech International, Inc., does not have adequate
timekeeping procedures. Its employees sometimes used correction fluid to alter timesheets,
supervisors did not sign all timesheets, and employees and supervisors did not initial all changes.


                                             COTTON & COMPANY LLP
             COTTON 8COMPANY LLP



                                        February 3,2000


Inspector General
Corporation for National and Community Service


                          INDEPENDENT AUDITORS' OPINION

       We audited costs claimed by Hi-Tech International, Inc., to the Corporation for National
and Community Service under Contract No. CNCS 94-003 for the period September 7, 1994,
through August 31, 1998, and Contract No. CNCS 95-002 for the period February 2, 1995,
through January 3 1, 1999. The Corporation awarded Contract No. CNCS 94-003 for the period
September 7, 1994, through August 31, 1998, and Contract No. CNCS 95-002 for the period
February 2, 1995, to January 31, 1999. Costs claimed are summarized in the Schedule of
Contract Costs. Costs claimed summarized in the Schedule are the responsibility of Hi-Tech
International, Inc., management. Our responsibility is to express an opinion on costs shown in the
Schedule based on our audit.

        Except as discussed in the following paragraph, we conducted our audit in accordance
with generally accepted auditing standards and Government Auditing Standards issued by the
Comptroller General of the United States. These standards require that we plan and perform the
audit to obtain reasonable assurance that the financial schedules are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting amounts and
disclosures in the financial schedules. It also includes assessing accounting principles used and
significant estimates made by management, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion on costs
claimed.

       Hi-Tech International, Inc., was unable to provide original employee timesheets to
support costs billed under the contracts. According to Hi-Tech International, Inc.'s senior
accountant, Hi-Tech International, Inc., employees at the Corporation's offices retained original
timesheets and sent facsimiles to Hi-Tech International, Inc.'s offices.
        The Schedule of Contract Costs is intended to present allowable costs incurred under the
contract in accordance with the Federal Acquisition Regulation and contract terms and
conditions. Therefore, it is not intended to be a complete presentation of Hi-Tech International,
Inc.'s revenues and expenses.

       In our opinion, except for questioned costs in the Schedule and the effects, if any, of
matters that may have come to our attention had Hi-Tech International, Inc., provided original
employee timesheets, the Schedule of Contract Costs referred to above presents fairly, in all
material respects, costs claimed by Hi-Tech International, Inc., for the audit period September 7,
1994, through January 31, 1999, in conformity with the Federal Acquisition Regulation and
contract terms and conditions.

       In accordance with Government Auditing Standards, we have also issued reports dated
February 3, 2000, on our consideration of Hi-Tech International, Inc.'s internal control structure
and on its compliance with laws and regulations.

      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Hi-Tech International, Inc., management.


                                             COTTON & COMPANY LLP
FINANCIAL SCHEDULE
                          SCHEDULE OF CONTRACT COSTS

        Corporation for National and Community Service Contracts With
                          Hi-Tech International, Inc.

                            Contract No. CNCS 94-003
                     September 7,1994, through August 31,1998

                                 Claimed Cost      Questioned Costs      Notes

Direct Labor                       $426,902               $167
Travel and Other Direct Costs      1,146,080            28,675
General and Administrative           177,761             5,790
Fee                                    2,049             2,049

Total Costs




                            Contract No. CNCS 95-002
                     February 2,1995, through January 31,1999


                                   Claimed Costs      Questioned Costs     Note

 Direct Labor                      $1,627,555              $171             5

 Total Costs                       $1,627,555              $_1?1
                NOTES TO THE SCHEDULE OF CONTRACT COSTS

1.   Hi-Tech International, Inc., billed $167 for 3.5 hours not supported by employee
     timesheets. FAR 52.232-7, Payments under Time-and-Materials and Labor-Hour
     Contracts, Section (a), states that the Contractor is to substantiate vouchers by evidence of
     actual payment and by individual daily job timecards.

     We questioned unallowable costs of $167.

2.   Hi-Tech International, Inc., billed other direct expenses that it could not support with
     invoices, receipts, cancelled checks, or its general ledger. Hi-Tech International, Inc.'s
     senior accountant stated that they did not know they needed to retain these types of
     records for audit purposes. The senior accountant also stated that some of the records
     were lost. We questioned $28,675 as follows:


             Task Order 1, Invoice 1. Invoices and cancelled checks were not available to
             support $960 of staff lodging costs, and cancelled checks were not available to
             support $6,122 of equipment rental expenses. Further, Hi-Tech International,
             Inc., was unable to provide evidence in its general ledger that it had paid any of
             these claimed costs.

     0       Task Order 3, Invoice 4. Invoices were not available to support $463 of meeting
             room and $23 of telephone charges at a hotel.

             Task Order 3, Invoice 6. Invoices and cancelled checks were not available to
             support $808 claimed for hotel rooms. Further, Hi-Tech International, Inc., was
             unable to provide evidence in its general ledger that it had paid any of these
             claimed costs.

             Task Order 8, Invoice 2. Hi-Tech International, Inc., claimed $775 for payments
             to a consultant. Hi-Tech International, Inc.'s cancelled checks and general ledger
             supported $725 of payments. We questioned the $50 overbilling.

             Task Order 19, Invoice 5. Invoices were not available to support costs of
             $10,780 for participant meeting rooms, $1,200 for meeting room rentals, $2,100
             for audiovisual rental, and $6,169 for meals.


     Without adequate supporting documentation, we were unable to determine the
     allowability of costs claimed in accordance with FAR 31.201-2, Determining
     Allowability. In addition, FAR 52.215-2, Audit and Records-Negotiation, Section (f),
     Availability, states that the Contractor is to make available at its office at all reasonable
     times the records, materials, and other evidence for examination, audit, or reproduction
     for 3 years after final payment under a contract.

     We questioned unsupported costs of $28,675.

3.   We questioned $5,790 ($28,675 x 20.19%) of G&A expense allocable to travel and other
     direct costs questioned in Note 2.

4.   Hi-Tech International, Inc., billed fees of $2,049, which was 2.5 percent of other direct
     costs billed under Task Order 1. FAR 16.601, Time-and-Materials Contracts, states that
     other direct costs under a time-and-materials contract must be billed at cost, including
     indirect costs if appropriate. In addition, FAR 16.102, Policies, specifically prohibits
     cost-plus-percentage-of-cost contracts.

     We questioned the unallowable costs of $2,049.

5.   Hi-Tech International, Inc., billed $171 of labor costs at a labor rate that did not agree
     with rates in the contract or contract modifications. Task Order 4, Modification 2,
     specifies labor categories and unit prices allowable under the contract. Hi-Tech
     International, Inc., senior accountant stated that the contracting officer had orally
     instructed them to bill $29.25 per hour for the File/Scan/Coordinator category even
     though the contract rate was $29.13.

     We questioned unallowable costs of $171
INDEPENDENT AUDITORS' REPORTS ON COMPLIANCE
      AND INTERNAL CONTROL STRUCTURE
             COTTON 0 COMPANY LLP




                                        February 3,2000



Inspector General
Corporation for National and Community Service


                INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

        We audited costs claimed by Hi-Tech International, Inc., to the Corporation for National
and Community Service under Contract No. CNCS 94-003 for the period September 7, 1994,
through August 31, 1998, and Contract No. CNCS 95-002 for the period February 2, 1995,
through January 3 1, 1999, and have issued our report thereon dated February 3, 2000. The
Corporation awarded Contract No. CNCS 94-003 for the period September 7, 1994, to August
3 1, 1998, and Contract No. CNCS 95-002 for the period February 2, 1995, to January 3 1, 1999.

        Except for the scope limitation described in our report on page 4, we conducted our audit
in accordance with generally accepted auditing standards and Government Auditing Standards
issued by the Comptroller General of the United States. These standards require that we plan and
perform the audit to obtain reasonable assurance that the financial schedules are free of material
misstatement.

        Compliance with applicable laws and regulations related to the contracts is the
responsibility of Hi-Tech International, Inc.'s management. As part of obtaining reasonable
assurance that costs are free of material misstatements, we performed tests of compliance with
certain provisions of laws and regulations related to the contracts. Our objective was not,
however, to provide an opinion on overall compliance with such provisions. Accordingly, we do
not express such an opinion.

       The results of our tests of compliance regarding claimed costs disclosed the following
material instance of noncompliance that is required to be reported herein under Government
Auditing Standards. As discussed in the Notes to the Schedule of Contract Costs, Hi-Tech
International, Inc., claimed direct labor, other direct costs, G&A, costs and fee that were
unallowable and unallocable in accordance with contract terms and conditions and the Federal
Acquisition Regulation.

        We recommend that the Corporation direct Hi-Tech International, Inc., to limit claimed
costs to those allowable under applicable cost principles and contract provisions.

       We considered the above material instance of noncompliance in forming our opinion on
whether Hi-Tech International, Inc.'s costs claimed under the contracts for the period September
7, 1994, through January 3 1, 1999, are presented fairly, in all material respects, pursuant to
contract terms and conditions and the Federal Acquisition Regulation. Because of the material
instance of noncompliance, our opinion on the Schedule is qualified.

      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Hi-Tech International, Inc., management.


                                            COTTON & COMPANY LLP
                                      February 3,2000



Inspector General
Corporation for National and Community Service


   INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL STRUCTURE

        We audited costs claimed by Hi-Tech International, Inc., to the Corporation for National
and Community Service under Contract No. CNCS 94-003 for the period September 7, 1994,
through August 31, 1998, and Contract No. CNCS 95-002 for the period February 2, 1995,
through January 31, 1999, and have issued our report thereon dated February 3, 2000. The
Corporation awarded Contract No. CNCS 94-003 for the period September 7, 1994, to August
3 1, 1998, and Contract No. CNCS 95-002 for the period February 2, 1995, to January 3 1, 1999.

        Except for the scope limitation described in our report on page 4, we conducted our audit
in accordance with generally accepted auditing standards and Government Auditing Standards
issued by the Comptroller General of the United States. These standards require that we plan and
perform the audit to obtain reasonable assurance that the financial schedules are free of material
misstatement.

        Hi-Tech International, Inc.'s management is responsible for establishing and maintaining
an internal control structure. In fulfilling this responsibility, estimates and judgments by
management are required to assess expected benefits and related costs of internal control
structure policies and procedures. The objectives of an internal control structure are to provide
management with reasonable, but not absolute, assurance that assets are safeguarded against loss
from unauthorized use or disposition, and that transactions are executed in accordance with
management's authorization and recorded properly to permit the preparation of financial
schedules in accordance with generally accepted accounting principles. Because of inherent
limitations in any internal control structure, errors or irregularities may nevertheless occur and
not be detected. Also, projection of any evaluation of the structure to future periods is subject to
the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.
        In planning and performing our audit, we obtained an understanding of Hi-Tech
International, Inc.'s internal control structure. We obtained an understanding of the design of
relevant policies and procedures and whether they had been placed in operation, and we assessed
control risk to determine our auditing procedures for the purpose of expressing an opinion on
claimed costs and not to provide an opinion on the internal control structure. Accordingly, we do
not express such an opinion.

        We noted two matters involving the internal control structure and its operation that we
consider reportable conditions under standards established by the American Institute of Certified
Public Accountants. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect an organization's ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial schedules. The
reportable conditions follow.

1.     Hi-Tech International, Inc., did not retain documentation supporting all direct labor,
       travel, and other direct costs billed to the Corporation. Hi-Tech International, Inc., was
       unable to provide original employee timesheets to support costs billed under the
       contracts. According to Hi-Tech International, Inc.'s senior accountant, Hi-Tech
       International, Inc., employees at the Corporation's offices retained original timesheets and
       sent facsimiles to Hi-Tech International, Lnc.'s offices. Hi-Tech International, Inc., also
       did not retain support, such as invoices, receipts, cancelled checks, or its general ledger
       for travel and other direct costs billed. Hi-Tech International, Inc.'s senior accountant
       stated that they did not know they needed to retain these types of records for audit
       purposes and some of the records were lost. However, FAR 52.215-2, Audit and
       Records-Negotiation, Section (0, Availability, states that the Contractor is to make
       available at its office at all reasonable times the records, materials, and other evidence for
       examination, audit, or reproduction for 3 years after final payment under a contract.

       We recommend that the Corporation direct Hi-Tech to retain all documentation
       supporting costs billed in accordance with the Federal Acquisition Regulation.

2.     Hi-Tech International, Inc., does not have adequate timekeeping procedures. Its
       employees sometimes used correction fluid to alter timesheets, supervisors did not sign
       all timesheets, and employees and supervisors did not initial all changes. Sound internal
       controls dictate that, at a minimum, employees and supervisors sign all timesheets, and
       changes to timesheets be marked through and initialed by the employee and supervisor.

        We recommend that the Corporation direct Hi-Tech International, Inc., to require
        supervisors and employees to sign all timesheets, initial all timesheet corrections, and
        prohibit the use of correction fluid.

        We believe the matters described above are material weaknesses. A material weakness is
a reportable condition in which the design or operation of one or more of the specific internal
control elements does not reduce to a relatively low level the risk that errors or irregularities in
amounts that would be material in relation to the financial statements being audited occur and not
be detected within a timely period by employees in the normal course of performing their
assigned functions. Our consideration of the internal control structure would not necessarily
disclose all matters in the internal control structure that might be material weaknesses under
standards established by the American Lnstitute of Certified Public Accountants.

      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Hi-Tech Lnternational, Inc., management.


                                                COTTON & COMPANY LLP


                                        Byk(/       -:I  p.?y    ,A4/,-

                                                 ichael W. Gill pie, CPA
                                                                                     CORPORATION

                                                                                     FOR N A T I O N A L


                                 MEMORANDUM


DATE:

TO:       Luke Jordan, OIG


FROM:
            4
          Ant o ~ u s ~ cCFO
                          k ,

Cc:        Simon G. Woodard, Director, Procurement Services
           Wilsie Minor, Assistant General Counsel



RE:        OIG Report No. 00-23; Audit of Corporation for National and Community
           Service Contract No. CNCS 94-003 and No. CNCS 95-002 with Hi-Tech
           International, Inc.



The subject draft report cites conditions and deficiencies pertaining to the performance of
Hi-Tech International, Inc. under Contract No. CNCS 94-003 and No. CNCS 95-002. We
have reviewed the draft report and do not have specific comments at this time. We will
address the findings and recommendations in the final management decision.




                                                                                      1201 New York Avenue, NW
                                                                                      Washington, DC 20525
                                                                                      Telephone 202-606-5000




                                                                                      Getting T b g s Done.
                                                                                      Amencorps, National Service
                                                                                      Learn and Serve America
                                                                                      National Senior Service Corps
        APPENDIX


THE CORPORATION'S RESPONSE
Office of Inspector General                                                              CORPORATION
1201 New York Avenue, NW                                                                 FOR NATIONAL
Washington, DC 20525




June 15,2000

William C. Cleveland
President
Hi-Tech International, Inc.
450 1 Ford Avenue
Suite 3 10
Alexandria, Virginia 22302


Dear Mr. Cleveland:

Enclosed is the final report on the results of our audit of the Corporation for National and
Community Service Contract No. CNCS 94-003 and No. CNCS 95-002 with Hi-Tech International,
Inc. If you have questions concerning the audit resolution process, please contact Anthony Musick,
Chief Financial Officer, at (202) 606-5000, extension 130. If you have questions concerning the
report itself, please contact me at (202) 606-5000, extension 426.

Sincerely,



Dean A. Reuter
Deputy Inspector General for
      Audit and Policy

Enclosure
Office of Inspector General                                                              CORPORATION
1201 New York Avenue, NW                                                                 FOR NATIONAL
Washington, DC 20525



MEMORANDUM

DATE:           June 15,2000

TO:             Harris Wofford
                Chief Executive Officer

                Wendy Zenker
                Chief Operating Officer

FROM:           Dean Reuter   &
                Deputy Inspector General for Audit and Policy

SUBJECT:        OIG Report 00-23; Audit of Corporation for National and Community Service
                Contract No. CNCS 94-003 and No. CNCS 95-002 With Hi-Tech International. Inc.


Attached is the final report on our audit of the above noted Corporation contracts with Hi-Tech
International, Inc. Under the Corporation's audit resolution policy, final management decisions on
the recommendations in this report are due by December 12,2000. If you have any questions or
wish to discuss the draft, please contact me on extension 426.

Attachments

c:      Anthony Musick
        Simon Woodard
